U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




                     U.S. CENSUS BUREAU

                         Results Assessment of
        Federal Audit Clearinghouse Database
            Utilizing Agreed-Upon Procedures


      Final Audit Report No. ATL-16202-4-0001/May 2004




                            PUBLIC
                            RELEASE



                  Office of Audits, Atlanta Regional Office

U.S. Department of Commerce                                        Final Report ATL-16202-4-0001

Office of Inspector General                                                            May 2004


                                   TABLE OF CONTENTS

                                                                                         Page


EXECUTIVE SUMMARY……………………………………………………………...                                                I


INTRODUCTION………………………………………………………………….……                                                   1


AGREED-UPON PROCEDURES AND RESULTS……………………………………                                           4


    Ascertained the Completeness of the Reporting Package…………………………...                     6


    Assessed the Accuracy of Data Elements in the                                          7

    Clearinghouse Database……………………………………...……………………...


    Verified Completeness of the Audit Findings in the Database………………...……                 15


    Tested the Results of Submitted Queries and 

    Accessed Specialized Reports………………………..……………………………..                                   16


    U. S. Census Bureau Response     …………………………………………………                                   21


    OIG Comments……………………………………………………………………..                                               21


SUMMARY OF INFORMATION TECHNOLOGY

CONTROLS REVIEW AND CENSUS RESPONSE..……………………………….....                                     22


APPENDIXES


    I. OIG Sampling Methodology

    II. Summary Schedule of Sampling Projections

    III. Specified Users of Federal Audit Clearinghouse Database

    IV. Glossary

    V.   Census Response to Draft Report
U.S. Department of Commerce                                          Final Report ATL-16202-4-0001

Office of Inspector General                                                             May 2004


                                  EXECUTIVE SUMMARY


The Office of Management and Budget (OMB) requested that the Department of Commerce,
Office of Inspector General, perform an agreed-upon procedures engagement to assess the
integrity of the Federal Audit Clearinghouse (Clearinghouse) Database. Congress has given
OMB statutory authority for implementing the Single Audit Act Amendments of 1996. OMB
implemented the Amendments through the issuance of its Circular A-133, Audits of States, Local
Governments and Non-Profit Organizations. In the circular, OMB authorized the U.S. Census
Bureau to operate the Clearinghouse, which serves as a repository for Single Audit reports and
an audit processing service and data dissemination system for the entire Federal grant
community.

Our objectives in this engagement were to perform specified agreed- upon procedures to assist
OMB, the U. S. Census Bureau, and other users (listed in Appendix III) in assessing the accuracy
of the information in the Clearinghouse Database for fiscal year 2002 audit reports and to
perform a limited scope review of the Information Technology (IT) general controls in place
over the Clearinghouse Database System. The IT general controls are significant because they
help maintain the integrity of the information within the Clearinghouse Database.

The results of the agreed- upon procedures are described in this report. These procedures were
performed in accordance with standards established by the American Institute of Certified Public
Accountants and Government Auditing Standards, issued by the Comptroller General of the
United States. The final report on the IT general controls review has been issued separately with
the findings and recommendations summarized in this report.

In summary, we performed agreed-upon procedures to:

   •	 Ascertain the completeness of the reporting packages accepted by the Clearinghouse.

   •	 Compare the information in the Clearinghouse Database with the information provided to
      the Clearinghouse on the Data Collection Form for Reporting on Audits of States, Local
      Governments and Non-Profit Organizations (Data Collection Form) and in the Single
      Audit reporting package.

   •	 Verify whether all audit findings reflected in the Single Audit reports were also included
      in the Clearinghouse Database.

   •	 Test the results of submitted queries and accessing specialized reports available on the
      Clearinghouse website with the information we obtained during our review of the
      Clearinghouse Database.

To verify the accuracy and completeness of the information in the Clearinghouse Database, we
used a two-stage attribute sampling plan developed by the Department of Labor, Office of
Inspector General, to achieve a sample that was representative of the universe of 2002 Single
Audit reports and the Catalog of Federal Domestic Assistance (CFDA) program entries in the



                                                i
U.S. Department of Commerce                                            Final Report ATL-16202-4-0001
Office of Inspector General                                                               May 2004

Clearinghouse Database. The sampling methodology used in the selection of 200 reports, known
as the stage I sample, and the selection of 900 individual CFDA program entries, known as the
stage II sample, is described in Appendix I.

Specifically, the results of the agreed- upon procedures are summarized as follows:

   •	   We reviewed the 200 audit reports selected in the stage I sample to ascertain the
        completeness of the reporting package for the reports in our sample. The reporting
        package includes the auditee’s financial statements and a supplementary schedule of
        expenditures of federal awards, the auditor’s reports including a schedule of findings and
        questioned costs, a corrective action plan, and a summary schedule of prior audit
        findings. In three audit reports, we found the auditor did not include a required element.
        In one report the missing element was the Corrective Action Plan, and in two reports the
        Summary Schedule of Prior Audit Findings was missing. The details of the errors can be
        found in Table 1 of the Agreed-Upon Procedures and Results section of this report. (See
        page 6.)

   •	   We compared the information in the Database with the information provided on the Data
        Collection Form and in the reporting package for the 200 Single Audit reports and the
        900 CFDA program entries selected as part of our sample. The sample sizes for the two-
        stage attribute sampling plan resulted in the testing of 14,800 attributes (data elements).
        We found a total of 159 errors. Of the 159 errors, 21 were attributable to the
        Clearinghouse, and 138 to the auditors and auditees. Of the 21 Clearinghouse errors, we
        found 10 made by the data entry operators and 11 that resulted from a programming
        problem in transferring information from the Clearinghouse Database to the
        Clearinghouse website. The 138 errors attributable to the auditors and auditees were due
        to incorrect or incomplete Data Collection Forms or missing and inconsistent data
        elements in the preparation of the Auditor’s Summary. The details of the errors can be
        found in Tables 2 through 6 of the Agreed-Upon Procedures and Results section of this
        report. (See pages 8 through 14.)

   •	   We verified whether all audit findings reflected in the 200 sampled Single Audit reports
        reviewed were included in the Clearinghouse Database. We found 7 out of 200 reports
        that had findings omitted from the Database. These reports were considered to have
        critical errors. These errors were due to the auditor omitting the findings on the Data
        Collection Form. The details of the errors can be found in Table 7 of the Agreed-Upon
        Procedures and Results section of this report. (See page 15.)

   •	   We verified the accuracy of specific reports and searches (queries) that users of the
        Database can request from the Clearinghouse website. We compared the information
        generated from six types of queries and four reports with the information we had
        confirmed during our Agreed Upon Procedures review of the Database. We found no
        errors in the queries we conducted. We found that three of the four reports had minor
        errors. The reports are generated from tables downloaded from the Database and these
        tables are not always updated in a timely manner. The Clearinghouse has corrected or is
        in the process of correcting the programs that generate these reports. The testing of the



                                                 ii
U.S. Department of Commerce                                             Final Report ATL-16202-4-0001
Office of Inspector General                                                                May 2004

   reports and queries was done by judgmental sample and we make no projections based on the
   procedures conducted. The details of the errors can be found in Table 8 through 10 of the
   Agreed Upon Procedures and Result Section of this report. (See pages 16 through 21.)

Projections were made for the data elements in Tables 1 through 7 and a Summary Schedule
detailing the error projections is included as Appendix II. It was decided to test internal controls
for a low level of risk. To assess internal controls for a low level of risk, we used a 95 percent
one-sided confidence level and a tolerable error rate of 7 percent or less. At this low level of
risk, a high reliance can be placed on the system of internal controls over the accuracy and
completeness of the data in the Clearinghouse Database.

Based on the projections included in Appendix II, 56 data elements had projected errors that fell
within a low level of control risk, two data elements had projected errors considered to have a
moderate level of control risk, and none of the data elements had projected errors in the high
level of control risk. The two data elements considered to have a moderate level of control risk
were: 1) the auditor’s address, and 2) the auditor’s identification of low risk auditee. The
Clearinghouse has already corrected the programming error that did not allow the users of the
Database to view the full address of the auditor. The importance of correctly reporting whether
an auditee is classified as a low-risk auditee requires that the auditors be reminded of the
importance of accurately completing the Data Collection Form and that care is needed in
correctly reporting whether an auditee does or does not qualify as low risk on the Auditor’s
Summary.

In response to our draft report on our agreed-upon procedures engagement, the U. S. Census
Bureau generally agreed with the results of the review but requested minor clarifications in the
results section of Table 8. We agreed with the requested clarifications and have modified the
final report in the appropriate places to reflect the clarifications. We have summarized the
Bureau’s response to the draft audit report and provided our comments in the appropriate report
section. We have also included the Bureau’s complete response as Appendix V.

As stated earlier, our office also performed a limited scope review of the Information
Technology general controls in place over the Clearinghouse System. The system provides its
users the ability, via the public Internet to submit or extract information to and from the
Clearinghouse Database. The IT general controls are significant to the system because they help
maintain the integrity, confidentiality, and availability of information maintained within the
Clearinghouse Database.

The Clearinghouse System is comprised of multiple components, including a front-end web-
server, several databases, remote access servers, data-entry workstations, and wide area
connectivity. Many of these components are located in physically separate facilities and
managed by different personnel. The overall objective of the review was to evaluate the
adequacy and effectiveness of the IT general controls surrounding the Clearinghouse System
using General Accounting Office’s (GAO’s) Federal Information System Controls Audit Manual
(FISCAM).




                                                 iii
U.S. Department of Commerce                                           Final Report ATL-16202-4-0001
Office of Inspector General                                                              May 2004

The final report on the IT general controls review has been issued separately to the Director of
the U.S. Census Bureau under Final Report No. ATL-16202-4-0002. We have summarized the
findings of that report as follows:

   •	 Technical documentation over the Clearinghouse system needs improvement because
      substantial portions of the documentation are incomplete, inaccurate, and/or out-of-date.

   •	 Application development testing policies and procedures over the Clearinghouse system
      needs improvement because application change controls are inadequate and incomplete.

   •	 Technical information and knowledge over the Clearinghouse System should be better
      centralized because the specific personnel with knowledge over system components are
      spread throughout the organization.

The final report on the IT general controls recommends that the Associate Director for
Information Technology of the U.S. Census Bureau ensure the following:

   •	 Minimum documentation standards for maintaining and restoring the Clearinghouse
      system components are defined and adhered to.

   •	 Policies and procedures for testing application change controls including integration and
      acceptance testing are improved.

   •	 A limited number of personnel are given the responsibility for maintaining a 

      comprehensive understanding of the Clearinghouse system. 


In response to the draft report, U.S. Census Bureau officials expressed the Bureau’s general
agreement with our recommendations.




                                                iv
U.S. Department of Commerce                                          Final Report ATL-16202-4-0001

Office of Inspector General                                                             May 2004


                                      INTRODUCTION


The Office of Management and Budget (OMB) has statutory authority for implementing the
Single Audit Act Amendments of 1996. OMB implemented the Amendments through the
issuance of its Circular A-133, Audits of States, Local Governments and Non-Profit
Organizations, which requires entities expending $300,000 or more in federal funds to have an
annual Single Audit performed. The Circular authorizes a Federal clearinghouse to receive these
audit reports. OMB designated the U.S. Census Bureau to operate the Federal Audit
Clearinghouse (Clearinghouse). Our objective was to perform specified agreed-upon procedures
to assist OMB, the Census Bureau, and other specified users (listed in Appendix III) in assessing
the accuracy of the information in the Clearinghouse Database for fiscal year 2002 audit reports
and the accuracy of specific reports and queries available on the Clearinghouse Internet website.
In addition to the agreed- upon procedures performed on the Clearinghouse Database, we
performed a limited scope FISCAM review to identify any potential weaknesses within the
information technology general controls environment.

The Clearinghouse collects completed Single Audit reporting packages from entities that are
required to have Single Audits performed under Circular A-133. The entities must submit one
complete reporting package for the Clearinghouse archives, additional copies for the
Clearinghouse to distribute to Federal awarding agencies whose direct Federal awards are
affected by findings in the auditor’s report, and a completed Data Collection Form for Reporting
on Audits of States, Local Governments and Non-Profit Organizations (Data Collection Form).
Once the Clearinghouse receives an auditee’s reporting package and Data Collection Form, it is
responsible for distributing the reporting package to the Federal awarding agencies identified on
the Data Collection Form.

The Clearinghouse serves as a repository for Single Audit reports and an audit processing service
and data dissemination system for the entire Federal grant community. Using the information
from the Data Collection Form, the Clearinghouse is responsible for incorporating information
about each auditee, its Federal awards, and audit results into a government-wide database. The
Clearinghouse Database’s coverage begins with audit information for fiscal years beginning on
or after July 1, 1996, and can be downloaded from or viewed directly on the Clearinghouse’s
website at http://harvester.census.gov/sac.

In calendar year 2000, our office issued an Agreed-Upon-Procedures report of our assessment of
the Clearinghouse Database for fiscal year 1998 audit reports to verify the accuracy and
completeness of the information in the Database. Since that review, there have been significant
changes to the methods of entering data into the Clearinghouse Database. The Clearinghouse
now accepts the Data Collection Form via an online Internet Data Entry System. For fiscal year
2002 audit reports, approximately 70 percent of the Data Collection Forms were entered online
with the other 30 percent still being entered by Clearinghouse staff. A signed copy of all Data
Collection forms are required to be submitted to the Federal Audit Clearinghouse along with
copies of the reporting package. In addition, the information of the Clearinghouse Database is
much more accessible due to reports and queries that can be accessed by users of the Database
via the Internet.
U.S. Department of Commerce                                              Final Report ATL-16202-4-0001

Office of Inspector General                                                                 May 2004


OFFICE OF INSPECTOR GENERAL’S REPORT
ON APPLYING AGREED-UPON PROCEDURES

We have performed the procedures described in the Agreed-Upon Procedures and Results
section of this report at the request of OMB. These procedures were agreed to by OMB, the
Census Bureau, and other specified agencies (listed in Appendix III). We performed these
procedures solely to assist the specified users with assessing the accuracy and completeness of
the auditee’s fiscal year 2002 information in the Clearinghouse’s Database as compared to the
Data Collection Form and the reporting packages submitted by Federal award recipients as
required by OMB Circular A-133. We also assessed the accuracy and completeness of specified
reports and queries generated by the Clearinghouse, accessible on the website and compared the
results to the Clearinghouse Database. This engagement to apply agreed- upon procedures was
performed in accordance with standards established by the American Institute of Certified Public
Accountants and Government Auditing Standards, issued by the Comptroller General of the
United States.

The sufficiency of the procedures is solely the responsibility of the specified users of this report.
Consequently, we make no representation regarding the sufficiency of the procedures therein,
either for the purpose for which this report has been requested or for any other purpose. The
procedures and results of these procedures are described in the Agreed-Upon Procedures and
Results section of this report.

We were not engaged to, and did not, perform an audit, the objective of which would be the
expression of an opinion on the completeness and accuracy of the information in the
Clearinghouse Database as compared to the submitted reporting packages. Accordingly, we do
not express such an opinion. Had we performed additional procedures, other matters might have
come to our attention that would have been reported.

This report is intended solely for the information and use of OMB, the Census Bureau, and the
Federal agencies listed in Appendix III and is not intended to be used by those who have not
agreed to the procedures and taken responsibility for the sufficiency of the procedures.

We conducted the engagement’s fieldwork at the Federal Audit Clearinghouse in Jeffersonville,
Indiana, from July 2003 through September 2003. The sample selected for the engagement was
taken from the 18,709 audit reports included in the Clearinghouse Database as of June 16, 2003,
with the auditee’s financial statement period ended during calendar year 2002.

SUMMARY OF OFFICE OF INSPECTOR GENERAL’S
INFORMATION TECHNOLOGY CONTROLS REVIEW

In addition to the agreed- upon procedures performed on the Clearinghouse Database, we also
performed a limited scope information technology review over the Clearinghouse’s general
controls environment. We reviewed the adequacy and effectiveness of the IT general controls
for five of six control areas identified in the General Accounting Office’s (GAO’s) Federal
Information Systems Controls Audit Manual (FISCAM). The IT general controls are significant
to the system because they help ensure the integrity of the information within the Clearinghouse
Database.

                                                  2

U.S. Department of Commerce                                        Final Report ATL-16202-4-0001
Office of Inspector General                                                           May 2004

This review has been issued as a separate OIG report. A summary of this review begins on Page
22 of this report for information only.




                                              3

U.S. Department of Commerce                                                    Final Report ATL-16202-4-0001

Office of Inspector General                                                                       May 2004


                         AGREED-UPON PROCEDURES AND RESULTS

Our assessment of the accuracy and completeness of the information included in the
Clearinghouse Database involved performing specific procedures in the following areas:
(1) verifying the completeness of the reporting package, (2) comparing the information in the
Clearinghouse Database with the information provided to the Clearinghouse on the Data
Collection Form for Reporting on Audits of States, Local Governments and Non-Profit
Organizations and in the Single Audit reporting package, (3) verifying whether or not all audit
findings reflected in the Single Audit reports were also included in the Clearinghouse Database,
and, (4) comparing the accuracy and completeness of specific reports and searches with the
information we obtained during our review of the Clearinghouse Database. These agreed-upon
procedures and results of the procedures are discussed on pages 6 through 21 of this report.

To verify the accuracy and completeness of the information included in the Clearinghouse
Database, we utilized a two-stage attribute sampling plan developed by the Department of Labor,
Office of Inspector General; the sampling plan is described in Appendix I. The stage I sample
consisted of 200 Single Audit reports entered in the Clearinghouse Database as of
June 16, 2003, with a financial statement period ended during calendar year 2002. The stage II
sample consisted of 900 Catalog of Federal Domestic Assistance (CFDA) program entries
associated with the 200 Single Audit reports selected in the stage I sample.

For stage I, the sampling plan utilized a stratified random attribute sample. The strata and
sample sizes per stratum were as follows:

                                              Number
                                              of Single     Total Federal                  Federal Awards
                                                Audit      Expenditures in     Sample     Expenditure in the
Stratum               Strata Range            Reports         Universe         Size            Sample
    1          $   300,000     $ 25,000,000       18,323       $ 46 Billion         100    $      304,168,022
    2           25,000,000     500,000,000           337          31 Billion         66         5,659,768,291
    3          500,000,000 70,000,000,000             49         354 Billion         34      261,874,725,662
  Totals                                          18,709       $ 431 Billion        200    $ 267,838,661,975


For stage II, the sampling plan was designed to test 300 CFDA program entries for each stratum
of Single Audit reports selected in stage I.

                      CFDA Program Entries        CFDA Program Entries            CFDA Program Entries
     Stratum              in Universe               in Stage I Sample               in Stage II Sample
           1                  154,251                         943                           300
           2                   28,936                       4,344                           300
           3                   32,023                      18,722                           300
      Totals                  215,210                      24,009                           900




                                                      4

U.S. Department of Commerce                                             Final Report ATL-16202-4-0001
Office of Inspector General                                                                May 2004

The errors identified when applying the agreed- upon procedures to the two-stage sample can be
found in Tables 1 through 7 of this report. Projections were made for the attributes (data
elements) and a Summary Schedule detailing the error projections is included as Appendix II.
We decided to test internal controls for a low level of risk. To assess internal controls for a low
level of risk, we used a 95 percent one-sided confidence level and a tolerable error rate of
7 percent or less. At this low level of risk, a high reliance can be placed on the system of internal
controls over the accuracy and completeness of the data in the Clearinghouse Database.

Based on the projections included in Appendix II, 56 data elements had projected errors that fell
within a low level of control risk, two data elements had projected errors considered to have a
moderate level of control risk, and none of the data elements had projected errors in the high
level of control risk. The two data elements considered to have a moderate level of control risk
were: 1) the auditor’s address, and 2) the auditor’s identification of low risk auditee. The
Clearinghouse has already corrected the programming error that did not allow the users of the
Database to view the full address of the auditor. The importance of correctly reporting whether
an auditee is classified as a low-risk auditee requires that the auditors be reminded of the
importance of accurately completing the Data Collection Form and that care is needed in
correctly reporting whether an auditee does or does not qualify as low risk on the Auditor’s
Summary.

To verify the accuracy and completeness of the information in the special reports and queries
available on the Internet we ran the reports and queries and used the information we retrieved
directly from the Database to compare these reports and searches. It was impossible to include
every query combination of data elements and data types, the possible combinations would be at
a minimum in the millions, so we used a judgmental sample for our tests and did not make any
projections on the results. These agreed- upon procedures and results of the procedures are
discussed in Tables 8 through 10 of this report.




                                                 5

U.S. Department of Commerce                                                         Final Report ATL-16202-4-0001

Office of Inspector General                                                                            May 2004


Ascertained the Completeness of the Reporting Package

Overview of Results

We reviewed 162 Internet submitted reports and 38 paper submitted reports for a total of 200
audit reports selected in the stage I sample to test the completeness of the reporting package. In
three audit reports, we found the auditor did not include a required element. In one report the
missing element was the Corrective Action Plan, and in two reports the Summary Schedule of
Prior Audit Findings was missing. The calculation of the attributes (data elements) tested, and
the details of the errors can be found in Table 1 below.

 Projections were made for the data elements where errors were found, and a Summary Schedule
detailing the error projections is included as Appendix II. We decided to test internal controls
for a low level of risk. To assess internal controls for a low level of risk, we used a 95 percent
one-sided confidence level and a tolerable error rate of 7 percent or less. Based on the
projections, we found all data elements in Table 1 were considered low risk. At this low level of
risk, a high reliance can be placed on the system of internal controls over the completeness of the
reporting packages included in the Clearinghouse Database.

Procedures and Results

Table 1
             Agreed-Upon Procedures Performed                                    Results of Procedures

 Verify that each reporting package selected as part of the stage   There were 1,600 attributes tested for Table 1. We
 I sample includes the following elements.                          calculated the attributes tested by multiplying the
                                                                    report’s elements by the sample size of 200
                                                                    (8 x 200 = 1,600).
 1.	   Financial Statements.
 2.	   Schedule of Expenditures of Federal Awards (SEFA).
                                                                    Three reports of the 200 single audit reports
 3.	   Independent Auditor’s Opinion on Financial Statements
                                                                    reviewed had a missing element. The missing
       and Supplementary Schedule of Expenditures of Federa l
       Awards (Auditor’s Report One).                               element in one report was the Corrective Action
                                                                    Plan, and in two reports the Summary Schedule of
 4.	   Report on Compliance and on Internal Controls over
                                                                    Prior Audit Findings.
       Financial Reporting Based on an Audit of Financial 

       Statements in Accordance with Government Auditing 

       Standards (Auditor’s Report Two).

 5.	   Report on Compliance with Requirements Applicable to
       Each Major Program and on Internal Controls over
       Compliance in Accordance with OMB Circular A-133
       (Auditor’s Report Three).
 6.	   Schedule of Findings and Questioned Costs.
 7.	   Corrective Action Plan (CAP) for current year audit
       findings.
 8.	   Summary Schedule of Prior Audit Findings (Prior Audit
       Findings) may be included although this schedule is not
       always required.




                                                          6

U.S. Department of Commerce                                              Final Report ATL-16202-4-0001

Office of Inspector General                                                                 May 2004


Assessed the Accuracy of Data Elements
in the Clearinghouse Database

Overview of Results

We compared the information in the Database with the information provided on the Data
Collection Form and in the reporting package for the 200 Single Audit reports (162 internet and
38 paper submissions) and 900 CFDA program (814 internet and 86 paper submissions) entries
selected as part of our sample. The sample sizes for the two-stage attribute sampling plan
resulted in the testing of 14,800 attributes (data elements). We found a total of 159 errors. Of
the 159 errors, 21 were attributable to the Clearinghouse, and 138 to the auditors and auditees.
Of the 21 Clearinghouse errors, we found 10 made by the data entry operators and 11 resulted
from programming problems in transferring information from the Clearinghouse Database to the
Clearinghouse website. The 138 errors attributable to the auditors and auditees were due to
incorrect or incomplete Data Collection Forms or missing data elements in the preparation of the
Auditor’s Summary. The calculation of the attributes tested and details of the errors can be
found in Tables 2 through 6 of the Agreed-Upon Procedures and Results section of this report.

Projections were made for the data elements where errors were found and a Summary Schedule
detailing the error projections is included as Appendix II. We decided to test internal controls
for a low level of risk. To assess internal controls for a low level of risk, we used a 95 percent
one-sided confidence level and a tolerable error rate of 7 percent or less. At this low level of
risk, a high reliance can be placed on the system of internal controls over the accuracy of the
information included in the Clearinghouse Database.

Based on the projections, only the following two elements were not considered to have a low
level of risk: 1) the auditor’s address (included in Table 2), and 2) the identification of low risk
auditee (included in Table 4). The complete auditor’s address was unable to be viewed on the
database website. However, this programming error has been subsequently corrected. The
importance of correctly reporting whether an auditee is classified as a low-risk auditee requires
that the auditors be reminded of the importance of accurately completing the Data Collection
Form and that care is needed in correctly reporting whether an auditee does or does not qualify
as low risk on the Auditor’s Summary.

Procedures and Results

We have defined the Clearinghouse database elements by reference to the applicable item of
Data Collection Form. Tables 2 through 6 report on the agreed-upon procedures performed to
test the accuracy of the data elements in the Clearinghouse Database.

For each element listed in Tables 2 through 6, we compared the information in the Clearinghouse
Database as retrieved from the Clearinghouse website with the information found on the Data
Collection Form and in the reporting package. We defined an error as any instance where the
information for the data element tested per the Database did not agree with the Single Audit
report or the Data Collection Form as applicable. For dollar amount data elements, we did not




                                                  7

U.S. Department of Commerce                                                        Final Report ATL-16202-4-0001
Office of Inspector General                                                                           May 2004

consider a difference of $100 or less to be an error. We determined whether errors noted were
the result of mistakes made by the Clearinghouse or by the auditor/auditee in completing the
Data Collection Form or other parts of the reporting package.

Table 2
                   DATA COLLECTION FORM Part I - General Information
             Agreed-Upon Procedures Performed                                  Results of Procedures.

 Item 1        Fiscal Year Ending Date                            There were 2,800 attributes tested for Table 2.
               Compared with Auditor’s Report One.                We calculated the attributes tested by
 Ite m 2       Type of Circular A-133 Audit                       multiplying the items listed in this table by the
               Compared with Auditor’s Report Three.              sample size of 200 (14 x 200 = 2,800). We
 Item 3        Audit Period Covered                               found 21 errors associated with the items listed
               Compared with Auditor’s Report One.                in Table 2.
 Item 5(a)     Auditee EIN
               Compared with Data Collection Form.
 Item 5(b)     Multiple EINs
               Compared with Data Collection Form.
 Item 5(c)     Multiple EINs
               Compared with Data Collection Form.
 Item 6(a)     Auditee Name                                       Items 6 and 7
               Compared with Data Collection Form.                We found 21 errors in Items 6 and 7. Of these
 Item 6(b)     Auditee Address                                    21 errors, an auditee made 1 typographical error
               Compared with Data Collection Form.                in completing the auditor’s name on the Data
 Item 6(g)     Auditee Signature                                  Collection Form. Twenty errors were made by
               Verified completeness on Data Collection           the Clearinghouse. Of the 20 errors made by the
               Form.                                              Clearinghouse, 9 were made by data entry
 Item 7(a)     Auditor Name                                       operators. Eight of the 9 were typographical
               Compared with Data Collection Form.                errors involving a misspelled auditee and
 Item 7(b)     Auditor Address                                    auditor’s name and incorrect and incomplete
               Compared with Data Collection Form.                addresses. The other error involved the
 Item 7(g)     Auditor Signature                                  acceptance of an updated data collection form
               Verified completeness on Data Collection           with the name of a different certifying official
               Form.                                              without updating the Database. The other 11
 Item 8        Federal Cognizance Determination                   Clearinghouse errors were in the display of the
               Compared with Data Collection Form. We             auditee or auditors address on the website. The
               considered the following errors: (1) If the Part   Database correctly includes line 2 of the address
               III, Item 10d total was $25 million or less,       for both the auditee and auditor, however, line 2
               cognizant designation was an error, and (2) If     was not shown correctly on the website. This
               Part III, Item 10d total was more than $25         programming problem has been corrected.
               million and included direct funds then
               responding that there was no cognizant agency
               was an error.
 Item 9        Name of Federal Cognizant Agency for
               Audit
               Compared with Data Collection Form, and
               cognizant agency list.




                                                         8

U.S. Department of Commerce                                                     Final Report ATL-16202-4-0001

Office of Inspector General                                                                        May 2004


Table 3
                 DATA COLLECTION FORM Part II- Financial Statements
          Agreed-Upon Procedures Performed                             Results of Procedures
                                                        There were 1,800 attributes tested for Table 3. We
                                                        calculated the attributes tested by multiplying the
                                                        items listed in this table by the sample size of 200
                                                        (9 x 200 = 1,800). We found a total of 11 errors in
                                                        the items included in Table 3.

 Item 1       Type of Audit Report                      Item 1
              Compared with                             We found 1 error in Item 1(a). This error,
              (a) Auditor’s Report One, and             attributable to the auditor, was due to a mismatch
              (b) the Summary of Auditor’s Results      between the type of audit report recorded on the Data
              included in the Schedule of Findings &    Collection Form and the type of report included in
              Questioned Costs (Auditor’s Summary).     Auditor’s Report One.

 Item 2       Going Concern Explanator y Paragraph
              Compared with Auditor’s Report One.

 Item 3       Reportable Conditions                     Item 3
              Compared with                             We found 4 errors in Item 3. All of these errors were
              (a) Auditor’s Report Two, and             attributable to the auditor. Item 3(a) had 3 errors. Of
              (b) Auditor’s Summary.                    the 3 errors, 1 was due to a mismatch between
                                                        reportable conditions included on the Data Collection
                                                        Form but not included in Auditor’s Report Two. The
                                                        other 2 errors were due to the inclusion of reportable
                                                        conditions in Auditor’s Report Two but not reported
                                                        on the Data Collection Form. Item 3(b) had 1 error
                                                        due to a mismatch between the reportable condition
                                                        information reported on the Data Collection Form
                                                        and the information on the Auditor’s Summary.
              Material Weaknesses                       Item 4
 Item 4
              Compared with                             We found 4 errors in Item 4. All of these errors were
              (a) Auditor’s Report Two, and             attributable to the auditor. Item 4(a) had 1 error.
              (b) Auditor’s Summary.                    The error was due to a mismatch between material
                                                        weakness information on the Data Collection Form
                                                        and the material weakness information included in
                                                        Auditor’s Report Two. We found 3 errors in Item
                                                        4(b). Two errors were due to a mismatch between
                                                        the material weakness information reported on the
                                                        Data Collection Form and the material weakness
                                                        information reported on the Auditor’s Summary.
                                                        One error was due to the omission of the material
                                                        weakness information on the Auditor’s Summary.

              Material Non-Compliance                   Item 5
 Item 5
              Compared with                             We found 2 errors in Item 5(b). These errors,
              (a) Auditor’s Report Two, and             attributable to the auditor, were due to omissions of
              (b) Auditor’s Summary.                    material non-compliance information on the
                                                        Auditor’s Summary.




                                                       9

U.S. Department of Commerce                                                      Final Report ATL-16202-4-0001

Office of Inspector General                                                                         May 2004


Table 4
                    DATA COLLECTION FORM Part III – Federal Programs
          Agreed -Upon Procedures Performed                             Results of Procedures
                                                      There were 2,600 attributes tested for Table 4. We
                                                      calculated the attributes tested by multiplying the items
                                                      listed in this table by the sample size of 200
                                                      (13 x 200 = 2,600). We found a total of 52 errors
                                                      associated with the items included in Table 4.

 Item 1        Type of Report on Major Program        Item 1
               Compliance                             We found 1 error in Item 1. Item 1(b) had 1 error,
               Compared with the                      attributable to the auditor, due to a mismatch between the
               (a) Auditor’s Report Three, and        type of report on major programs included on the Data
               (b) Auditor’s Summary.                 Collection Form and the type of report on major programs
                                                      included on the Auditor’s Summary.

 Item 2        Related A-133 Audits                   Item 2
               Compared with the Auditor’s Report     We found 4 errors in Item 2. All of these errors were
               Three                                  attributable to the auditor, due to a mismatch between the
                                                      statements concerning related A-133 audits included on
                                                      the Data Collection Form and the Auditor’s Report Three.

 Item 3        Dollar Threshold to Distinguish Type   Item 3
               A and Type B Programs                  We found 8 errors in Item 3. All of these errors were
               Compared with the Auditor’s            attributable to the auditor. Of the 8 errors, we found 2
               Summary.                               errors due to the auditor’s failure to list the Type A dollar
                                                      threshold on the Auditors Summary, and 6 errors due to a
                                                      mismatch between the type of report on major programs
                                                      included on the Data Collection Form and the type of
                                                      report on major programs included on the Auditor’s
                                                      Summary.

 Item 4        Low-Risk Auditee                       Item 4
               Compared with the Auditor’s            We found 6 errors in Item 4. All of these errors were
               Summary.                               attributable to the auditor. Two errors were due to the
                                                      auditor not listing whether the auditee qualified as a low
                                                      risk auditee on the Auditor’s Summary, and 4 errors were
                                                      due to a mismatch between the information on the Data
                                                      Collection Form and the information on the Auditor’s
                                                      Summary

 Item 5        Reportable Condition                   Item 5
               Compared with the                      We found 4 errors in Item 5. All of these errors were
               (a) Auditor’s Report Three, and        attributable to the auditor. Item 5(b) had 1 error due to
               (b) Auditor’s Summary.                 the auditor’s inclusion of reportable conditions on the
                                                      Data Collection Form that were not indicated in the
                                                      Auditor’s Summary and 3 errors due to a mismatch
                                                      between the reportable conditions on the Data Collection
                                                      Form and the audit findings included on the Auditor’s
                                                      Summary.




                                                      10

U.S. Department of Commerce                                                         Final Report ATL-16202-4-0001

Office of Inspector General                                                                            May 2004


Table 4 (cont.)
                  DATA COLLECTION FORM Part III- Federal Programs (cont.)
        Agreed-Upon Procedures Performed                                   Results of Procedures
 Item 6      Material Weakness                           Item 6
             Compared with the                           We found 4 errors in Item 6 that were attributable to the
             (a) Auditor’s Report Three, and             auditor. Item 6(a) had 1 error due to the auditor’s
             (b) Auditor’s Summary.                      inclusion of a material weakness on the Data Collection
                                                         Form that was not indicated in Auditor’s Report Three.
                                                         Item 6(b) had 3 errors, 2 errors were due to the auditor not
                                                         listing a material weakness noted in Audit Report Three
                                                         and not on the Auditor’s Summary, and 1 error due to a
                                                         mismatch between the audit findings on the Data
                                                         Collection Form and the audit findings included on the
                                                         Auditor’s Summary.

                                                         Item 7
 Item 7       Questioned Costs
                                                         We found 2 errors in Item 7 that were attributable to the
              Compared with the Auditor’s                auditor. The 2 errors were due to a mismatch between the
              Summary.
                                                         audit findings on the Data Collection Form and the audit
                                                         findings included on the Auditor’s Summary.



 Item 8       Prior Audit Findings                       Item 8
              Compared with the Summary of Prior         We found 5 errors in Item 8 that were attributable to the
              Audit Findings.                            auditor. The 5 errors were due to a mismatch between this
                                                         item on the Data Collection Form and the actual inclusion
                                                         of a Summary of Prior Audit Findings in the audit report.



 Item 9       Reporting Package List                     Item 9
              Compared with the                          We found 18 errors in Item 9, that were attributable to the
              (a) Auditor’s Summary and                  auditor. In Item 9(a) for 4 of these errors, the auditor
              (b).Summary of Prior Audit Findings.       indicated Federal agencies were required to receive the
                                                         reporting package when we could find no evidence that
              Federal Agencies Required to               they were. Five of the errors, involved the mis -
              Receive the Reporting Package.             identification of all Federal agencies required to receive
              For each finding identified in the         reports. For 2 of the errors the cognizant/oversight agency
              Schedule of Findings and Questioned        was not identified to receive a copy of the report, and for
              Costs, we determined which Federal         5 of the errors, the schedule of prior audit findings did not
              awarding agency provided direct funds      include the CFDA’s so that the affected agency could be
              and should receive a copy of the report.   identified. In Item 9(b) for 2 of the errors the cognizant
                                                         /oversight agency was not identified to receive a copy of
                                                         the report.




                                                         11

U.S. Department of Commerce                                                    Final Report ATL-16202-4-0001

Office of Inspector General                                                                       May 2004


Table 5
                  DATA COLLECTION FORM Part III - Federal Programs
          Agreed Upon Procedures Performed                            Results of Procedures
                                                      There were 5,800 attributes tested for Table 5. We
                                                      calculated the attributes tested by multiplying items
                                                      10(a) - 10(f) by the sample size of 900 (6 x 900 =
                                                      5,400) plus Totals 10(d)(a) and (b) by the sample size
                                                      of 200 (2 x 200 =400). We found 65 errors associated
                                                      with the items included in Table 5.

 Item 10(a)     CFDA Number                           Item 10(a)
                Compared with the SEFA.               We found 4 errors in 4 reports. All of these errors,
                                                      resulted from the auditor completion of the Data
                                                      Collection Form that did not match the SEFA.

 Item 10(b)     Research & Development                Item 10(b)
                Compared with the SEFA.               We found 2 errors in 2 reports, both attributable to the
                                                      auditor. For 1 CFDA program, we could not match
                                                      the program name in the Data Collection Form to the
                                                      SEFA, and one error was attributable to the fact that
                                                      the research and development programs were not
                                                      identified on the SEFA.

 Item 10(c)     Name of Federal Program               Item 10(c)
                Compared with the SEFA.               We found 4 errors in 4 reports. Three errors were
                                                      attributable to the auditor, where we could not match
                                                      the program name in the Data Collection Form to the
                                                      SEFA. We also noted 1 error attributable to the
                                                      Clearinghouse due to a typographical error.

 Item 10(d)     Federal Awards Amount Expended        Item 10(d)
                Compared with the SEFA. We            We found 6 errors in 4 reports. Of these 6 program
                determined whether the amounts for    errors, all were attributable to the auditor. The errors
                Federal awards expended had been      were due to the amount of Federal expenditures in the
                included in Item 10d of the Data      Clearinghouse Database not matching the Data
                Collection Form.                      Collection Form or the SEFA. For two errors on one
                                                      report, the amount reported was for revenues, not
                                                      expenditures. For 2 errors on 2 reports, the CFDA
                                                      program was not on the SEFA. For 2 errors on 1
                                                      report, the Data Collection Form listed the expenditure
                                                      amount to the nearest dollar, and the SEFA rounded to
                                                      the nearest thousand.

 Total 10(d)    Total Federal Awards Expended         Total Item 10(d)
                Compared with the                     We found 4 errors in 4 reports. All of these errors
                    (a) SEFA, and                     were attributable to the auditor. Total 10(d)(a) had 3
                    (b) Data Collection Form.         errors due to a mismatch between the Database and
                                                      the SEFA, and 1 error, where the amount reported on
                                                      the Data Collection Form was for revenues, not
                                                      expenditures.




                                                     12

U.S. Department of Commerce                                                Final Report ATL-16202-4-0001

Office of Inspector General                                                                   May 2004


Table 5 (cont.)

                    DATA COLLECTION FORM Part III - Federal Programs
        Agreed Upon Procedures Performed                         Results of Procedures
 Item 10(e)       Direct Award                   Item 10(e)
                  Compared with the SEFA.        We found 35 errors in 19 reports. The auditors were
                                                 responsible for all of the errors. Of the 35 errors, 19
                                                 errors, affecting 11 reports, were due to differences in
                                                 the direct awards identified on the SEFA and the
                                                 direct awards identified on the Data Collection Form.
                                                 We found 13 errors, affecting 6 reports, the SEFA did
                                                 not identify which programs were indirect (pass
                                                 through) versus direct. Another 2 errors affecting 1
                                                 report, the Data Collection Form did not identify the
                                                 breakdown of funds between indirect and direct for
                                                 specific amounts. The other 1 error for 1 report was
                                                 because the CFDA program entry could not be
                                                 identified on the SEFA.
 Item 10(f)       Major Program
                  Compared with the Auditor’s    Item 10(f)
                  Summary.                       We found 10 errors in 9 reports. The auditors were
                                                 responsible for all of the errors. Of the 10 errors, 9
                                                 errors, affecting 8 reports, were due to differences in
                                                 the major programs identified on the Auditor’s
                                                 Summary and the major programs identified on the
                                                 Data Collection Form. The other 1 error for 1 report
                                                 was because the program could not be identified on
                                                 the SEFA.




                                                13

U.S. Department of Commerce                                                         Final Report ATL-16202-4-0001

Office of Inspector General                                                                            May 2004


Table 6
                    DATA COLLECTION FORM Part III - Federal Program
          Agreed -Upon Procedures Performed                                 Results of Procedures
                                                           There were 1800 attributes tested in Table 6. We
                                                           calculated the attributes tested by multiplying the items
                                                           listed in this table by the sample size of 900
                                                           (2 x 900=1,800). We found 10 errors associated with
                                                           the items listed in Table 6.

 Item 11(a)   Type of Compliance Requirement               Item 11(a)
              Compared with Schedule of Findings and       We found 6 errors in 2 reports. All were counted as
              Questioned Costs, and Data Collection        auditor errors. Five of the errors in one report were due
              Form. For each audit finding identified,     to the auditor marking an incorrect and/or incomplete
              we read the finding in the Schedule of       type of compliance requirement code on the Data
              Findings and Questioned Costs, and           Collection Form. One error for 1 report was because
              determined the type of compliance            the program could not be identified on the SEFA.
              requirement

 Item 11(b)   Finding Reference Numbers                    Item 11(b)
              Compared to the Schedule of Findings         We found 4 errors in 2 reports. All were attributable to
              and Questioned Costs.                        the auditor. One error was because the program could
                                                           not be identified on the SEFA. Three errors for 1
                                                           report was a uploading error resulting from the auditor
                                                           not changing the data fields to text prior to entering the
                                                           information. The finding reference numbers that were
                                                           two-digits (numbers 12 or less) a dash and two digits
                                                           were being converted to month / day instead of the
                                                           numeric finding reference number requested by the
                                                           Data Collection Form.




                                                         14

U.S. Department of Commerce                                                         Final Report ATL-16202-4-0001

Office of Inspector General                                                                            May 2004


Verified the Completeness of the Audit Findings
in the Database

Overview of Results

We verified whether all audit findings reflected in the 200 sampled Single Audit reports
reviewed were included in the Clearinghouse Database. We found seven reports that had
findings omitted from the Database. We classified these reports as having critical errors. The
details of these errors can be found in Table 7 below.

Projections were made for the critical errors, and a Summary Schedule detailing the error
projections is included as Appendix II. We decided to test internal controls for a low level of
risk. To assess internal controls for a low level of risk, we used a 95 percent one-sided
confidence level and a tolerable error rate of 7 percent or less. Based on the projections, we
found that the completeness of audit findings in the Clearinghouse database is considered low
risk. At this low level of risk, a high reliance can be placed on the system of internal controls
over the completeness of audit findings in the Clearinghouse Database.

Procedures and Results

Table 7
          Agreed-Upon Procedures Performed                                  Results of Procedures
 Using the reporting packages obtained for the stage I       We found 7 reports out of 200 that had findings omitted
 sample, we tested all findings reported in the Schedule     from the Database. These reports were considered to
 of Findings and Questioned Costs, Section III (Federal      have critical errors. These errors were due to the
 award findings and questioned costs), to determine if       auditor omitting the findings on the Data Collection
 they were also reported as findings in the                  Form. We found 6 reports where the findings were
 Clearinghouse Database. The audit finding reference         properly reported in the Database, however, the website
 number was used to make this determination.                 showed finding reference numbers that were
                                                             incomplete due to a Clearinghouse programming error.
                                                             We did not consider these errors critical because the
                                                             findings were included in the Database even though the
                                                             finding reference numbers were incomplete.




                                                           15

U.S. Department of Commerce                                            Final Report ATL-16202-4-0001

Office of Inspector General                                                               May 2004


Tested the Results of Submitted Queries
and Accessed Specialized Reports

Overview of Results

The Federal Audit Clearinghouse Database contains information obtained from the Data
Collection Forms. The Internet Data Dissemination System allows users to search the Federal
Audit Clearinghouse’s entire database through its website. We performed specific procedures
to determine whether the queries and specialized reports were accurate against known elements
in the Database. It was impossible to include every query combination of data elements and data
type, the possible combination would be at a minimum in the millions, so we used a judgmental
sample to compare the results to known information obtained while performing Agreed-Upon-
Procedures using the stage I and stage II sample. Consequently, we can make no projections of
results of the queries and reports we tested. We found no errors in the queries tested, however,
we found some minor errors in three of the reports accessible through the website. The queries
and specialized reports we tested and the detail of the errors found can be found in Tables 8
through 10.

Procedures and Results

The Internet Data Dissemination System is located at the following web address:
http://harvester.census.gov/sac. To access the database at the Clearinghouse website, type the
web address in the browser’s address bar and press GO. From the Clearinghouse home page,
choose the link “Access Single Audit Data.” Next, on the Single Audit Disclaimer Information
page, click on the “Retrieve Records” button at the bottom of the page. The next page is the
Access Options for Single Audit Data. Tables 8 through 10 on the agreed upon procedures
performed test the accuracy and completeness of the information obtained from the
Clearinghouse Database.

The screens for the queries and reports offer display and sort options. Not all display and sort
options are applicable to every report or query. Because the information about which sort
options work with each report and query is not available in the instructions for searching the
database, we did not report the results of any of the sorts we ran.




                                                16

U.S. Department of Commerce                                                      Final Report ATL-16202-4-0001

Office of Inspector General                                                                         May 2004


Table 8
                                 ACCESS SPECIALIZED REPORTS
          Agreed Upon Procedures Performed                                  Results of Procedures
 Item 1    Statewide Report – FAC Generated

           Using the Stage I sample of 200 reports,          We found no errors in our test of the Statewide
           compare the printed report with the information   report. We traced the 24 state reports included in the
           in the Clearinghouse database.                    stage I sample to the printed statewide report and all
                                                             24 were included on the report.

 Item 2    COG List Report:

           Using the Stage I sample of 200 reports,          We found 1 error in our test of the Cog List Report.
           compare the printed report with the information   Of the 200 reports included in our stage I sample, 91
           in the Clearinghouse database.                    were identified as having a cognizant federal agency.
                                                             We compared these 91 entities to the list of entities
           .                                                 on the Cog list report and found that the report did
                                                             not include one of the entities. This occurred
                                                             because the Clearinghouse program comparing the
                                                             information submitted on the Data Collection Form
                                                             with the official list of Cognizant agency assignment
                                                             provided in March 2002 was not implemented until
                                                             November 2002 and some of the 2002 audit reports
                                                             had already been entered into the Database. We
                                                             found no errors for reports entered into the Database
                                                             after the Cog List program was implemented in
                                                             November 2002.

 Item 3    COG List Search

           Using a selected sample of 6 reports taken from   We found no errors in our test of the query referred
           our Stage I sample of 200 reports, compare the    to as Cog LIST Search. We tested the information
           information obtained from the query with the      we obtained when performing the query with the
           information in the Clearinghouse database.        information we had on 6 reports included in the
                                                             stage I sample to determine that the query was
                                                             providing accurate information.

           The search provides information on completed      We generated the query 54 times using each of the
           reporting packages that have a designated         available search criteria and found that the listed
           cognizant federal agency. The search is           search criteria produced accurate results when
           generated by entering part of the Auditee Name,   compared to our sample.
           the complete 9-digit EIN, or COG Agency
           identifying number.




                                                       17

U.S. Department of Commerce                                                       Final Report ATL-16202-4-0001

Office of Inspector General                                                                          May 2004


Table 8 con’t
                                 ACCESS SPECIALIZED REPORTS
          Agreed Upon Procedures Performed                                   Results of Procedures
 Item 4    Submission Status of Entities With
           Cognizant Agency

           Using the stage I sample of 200 reports,           We found 2 reportable problems in our review of the
           compare the printed report with the information    Submission Status of Entities with Cognizant
           in the Clearinghouse Database.                     Agency Report.

           The report includes a 3-year comparison of total   We reviewed two reports on the Clearinghouse
           federal expenditures for entities with a           website relating to the cognizant agency assignments
           designated cognizant agency during the three       for 2001 through 2005. The first report is entitled,
           year period.                                       Cog List Report (See Item 2 of Table 8). The
                                                              second report, discussed in paragraph below is
                                                              entitled, Submission Status of Entities with
                                                              Cognizant Agency. As expected, the same error
                                                              reported under Cog List Report was found again in
                                                              our review of the Submission Status of Entities with
                                                              Cognizant Agency.

                                                              In addition, we found that the Submission Status of
                                                              Entities with Cognizant Agency Report is not
                                                              generated directly from the information in the
                                                              Database, but from a table created from a replication
                                                              of the Database. We found 2 instances when this
                                                              table was not timely updated; therefore, the
                                                              Submission Status of Entities with Cognizant
                                                              Agency Report was not always current. We
                                                              consider these 2 instances reportable problems.
                                                              These problems have now been corrected.




                                                       18

U.S. Department of Commerce                                                        Final Report ATL-16202-4-0001

Office of Inspector General                                                                           May 2004


Table 9

                          SEARCH THE SINGLE AUDIT DATABASE
        Agreed Upon Procedures Performed                                  Results of Procedures
 Query 1    Status of Submissions

             Using a selected sample of 6 reports          We found no errors in our test of the query for Status
             from the Stage I sample of 200 reports,       of Submission. We tested the information we
             compare the query results with the            obtained when performing the query with the
             information obtained from the                 information we had on the six reports included in the
             Clearinghouse Database.                       stage 1 sample and determined that query was
                                                           providing accurate information for this test.

             The Audit Status Search checks to see         We generated the query 46 times using each of the
             the status of an entity’s reporting           available search criteria and found that the listed
             package submission. Information               search criteria produced accurate results when
             provided includes whether the package         compared to our sample.
             submitted is complete, or whether
             additional information has been
             requested. The query is generated by
             entering part of the auditee name, the
             complete 9-digit EIN, or State.

 Query 2     Entity Search

             Using a selected sample of 6 reports          We found no errors in our test of the query for Entity
             from the stage I sample of 200 reports,       Search. We tested the information we obtained when
             compare the query results with the            performing the query with the information we had on
             information obtained from the                 the six reports included in the stage 1 sample and
             Clearinghouse Database.                       determined that query was providing accurate
                                                           information for this test.

             The Entity Search is a query for a list of    We generated the query 31 times using each of the
             entities based on name, EIN or State          available search criteria and found that the listed
             criteria. This query only provides            search criteria produced accurate results when
             information on completed report               compared to our sample.
             submissions.

 Query 3     Advanced Entity Search

             Using a selected sample of 6 reports          We found no errors in our test of the query for
             from the stage I sample of 200 reports,       Advanced Entity Search. We conducted two tests for
             compare the query results with the            each of our 6 sample reports using various Data
             information obtained from the                 Collection Form data elements and combination of
             Clearinghouse Database.                       data elements and verified that the requested
                                                           information was accurate compared to our 6 reports
             The Advanced Entity Search is a query         used in the test.
             for a list of entities based of any data
             element or combination of data elements
             included on the Data Collection Form.
             The query only provides information on        .
             completed report submissions.




                                                          19

U.S. Department of Commerce                                                         Final Report ATL-16202-4-0001

Office of Inspector General                                                                            May 2004


Table 9 con’t
                             SEARCH THE SINGLE AUDIT DATABASE
        Agreed Upon Procedures Performed                                   Results of Procedures
 Query 4    CFDA Search

                Using a selected sample of 6 reports        We found no errors in our test of the query for CFDA
                from the stage I sample of 200 reports,     Search. We tested the information we obtained when
                compare the query results with the          performing the query with the information we had on
                information obtained from the               the 6 reports included in the stage 1 sample and
                Clearinghouse Database.                     determined that query was providing accurate
                                                            information for this test.

                The CFDA Search is a query for a list of    We generated the query 26 times using each of the
                CFDA program entries based on name,         available search criteria and found that the listed
                EIN or State criteria. This query only      search criteria produced accurate results when
                provides information on completed           compared to our sample.
                report submissions.

 Query 5        Advanced CFDA Search

                Using a selected sample of 6 reports        We found no errors in our test of the query for
                from the stage I sample of 200 reports,     Advanced CFDA Search. We conducted two tests for
                compare the query results with the          each of our 6 sample reports using various Data
                information obtained from the               Collection Form data elements and combination of
                Clearinghouse Database.                     data elements and verified that the requested
                                                            information was accurate compared to our 6 reports
                The Advanced CFDA Search is a query         used in the test.
                of all Data Collection Form information
                entered into the Clearinghouse Database
                for completed report submissions. The
                search is generated by entering any data
                element or combination of data elements
                included on the Data Collection Form.




                                                           20

U.S. Department of Commerce                                                      Final Report ATL-16202-4-0001

Office of Inspector General                                                                         May 2004


Table 10
                                 Summary of Single Audits by Fiscal year
     Agreed Upon Procedures Performed                                   Results of Procedures
 Summary of Single Audits by Fiscal Year

 Compare the totals included in this report to the   We found small errors in the totals reported on this summary
 data in the Clearinghouse Database to verify the    report. The Clearinghouse identified three programming
 accuracy of the report.                             problems as the source of the errors. First, 150 reports were
                                                     complete but not included in the total due to a missing data
 The report is a summary of the reporting packages   element. Second, 16 reports were misidentified as either
 received by the Clearinghouse for years 1997        findings or non-findings reports. Finally, the use of 2
 through 2003. Summary totals are provided for       different internal data sources for the summary report and
 Incomplete Receipts, Complete Receipts,             dissemination files caused a mis -count of totals. The
 Complete Receipts with Findings, and Complete       Clearinghouse had corrected the first two programming
 Reports without Findings for years 1997 through     problems and is working on an automated solution for the
 2003.                                               third. In the interim, they are checking the counts daily,
                                                     running a query to identify any missing records, so the report
                                                     download has the correct totals.

U. S. Census Bureau Response

In response to our draft report on our agreed-upon procedures engagement, the U. S. Census
Bureau generally agreed with the results of the review but requested minor clarifications in the
results section of Table 8. The Bureau’s complete response is included as Appendix V.


OIG Comments

We agreed with the Bureau’s requested clarifications and have modified the final report in the
appropriate places to reflect the clarifications.




                                                      21

U.S. Department of Commerce                                            Final Report ATL-16202-4-0001

Office of Inspector General                                                               May 2004


SUMMARY OF INFORMATION TECHNOLOGY
CONTROLS REVIEW AND CENSUS REPONSE

In addition to the agreed- upon procedures, the Department of Commerce, Office of Inspector
General also performed a limited scope review of the Information Technology general controls
in place over the Clearinghouse System. The system provides its users the ability, via the public
Internet to submit or extract information to and from the Clearinghouse Database. The IT
general controls are significant to the system because they help ensure the integrity,
confidentiality, and availability of information maintained within the Clearinghouse Database.

The Clearinghouse System is comprised of multiple components, including a front-end web-
server, several databases, remote access servers, data-entry workstations, and support servers.
These components rely upon wide-area network connectivity for communications between the
various parts. Many of these components are located in physically separate facilities and
managed by different personnel. The overall objective of the review was to evaluate the
adequacy and effectiveness of the general IT general controls surrounding the Clearinghouse
System using General Accounting Office’s (GAO’s) Federal Information System Controls Audit
Manual (FISCAM). The general control areas we reviewed included the following: entity wide
security program planning and management; access controls; application software development
and change control; system software; and service continuity.

A final report on the IT general controls review has been issued separately to the Director of the
U.S. Census Bureau under Final Report No. ATL-16202-4-0002. We have summarized the
findings of that report as follows:

   •	 Technical documentation over the Clearinghouse system needs improvement because
      substantial portions of the documentation are incomplete, inaccurate, and/or out-of-date.

   •	 Application development testing policies and procedures over the Clearinghouse system
      needs improvement because application change controls are inadequate and incomplete.

   •	 Technical information and knowledge over the Clearinghouse System should be better
      centralized because the specific personnel with knowledge over system components are
      spread throughout the organization.

The final report on the IT general controls recommends that the Associate Director for
Information Technology of the U.S. Census Bureau ensure the following:

   •	 Minimum documentation standards for maintaining and restoring the Clearinghouse
      system components are defined and adhered to.

   •	 Policies and procedures for testing application change controls including integration and
      acceptance testing are improved.

   •	 A limited number of personnel are given the responsibility for maintaining a 

      comprehensive understanding of the Clearinghouse system. 



                                                22

U.S. Department of Commerce                                           Final Report ATL-16202-4-0001
Office of Inspector General                                                              May 2004

In response to the draft report, U.S. Census Bureau officials expressed the Bureau’s general
agreement with our recommendations.




                                               23

U.S. Department of Commerce                                          Final Report ATL-16202-4-0001
Office of Inspector General                                                             May 2004

                                                                                      Appendix I
                                                                                      Page 1 of 6

                              Single Audit Clearinghouse Database

                              FY 2002 Audit Reports AUP Project

                                  OIG Sampling Methodology


This appendix describes the sampling methodology used to determine the Single Audit reports
and Catalog of Federal Domestic Assistance (CFDA) program entries in the Federal Audit
Clearinghouse Database that were tested. Stage I represents Single Audit reports entered in the
Database as of June 16, 2003, with a financial statement period ended during calendar year 2002.
Stage II represents CFDA program entries associated with such Single Audit reports as indicated
in Part III of the Data Collection Form for Reporting on Audits of States, Local Governments
and Non-Profit Organizations.

We utilized a two-stage attribute sampling plan prepared by the Department of Labor, Office of
Inspector General, to achieve a sample that was representative of the individual CFDA program
entries in the Database. As of June 16, 2003, the Database included 18,709 audit reports
claiming $431 billion in Federal awards expended during the auditee’s fiscal year 2002. Of the
18,709 reports, we selected 200 reports for testing, using a stratified random sample. These 200
Single Audit reports included 24,009 individual CFDA program entries. Of these 24,009 entries,
we selected 900 entries.

Definition and Source of the Universe

The universe was defined in two stages. The stage I universe was defined as all Single Audit
reports entered in the Database as of June 16, 2003, with a financial statement period ended
during calendar year 2002. This totaled 18,709 reports. The stage II universe was defined as all
CFDA program entries as represented in part III of the Data Collection Form for the audit reports
identified in the population. This totaled 215,210 entries.

The universe was obtained from the U. S. Census Bureau, Department of Commerce (Census).
Census created a Microsoft Access file, which contained two data sets, that was placed on their
FTP site for us to download. The files included all data included in the on-line database
available over the Internet at http://harvester.census.gov/sac/ as of June 16, 2003.
U.S. Department of Commerce                                           Final Report ATL-16202-4-0001
Office of Inspector General                                                              May 2004

                                                                                       Appendix I
                                                                                       Page 2 of 6

Stage I was used to test that all Single Audit packages included the required schedules that were
complete prior to acceptance in the Database as indicated in Table 1.

       Completeness of Reporting Package

       IB1     Financial Statements

       IB2     Schedule of Expenditures of Federal Awards

       IB3A    Independent Auditor’s Report

       IB3B    Multiple Reports

       IB4     Report on Compliance and Internal Control

       IB5     Report on Compliance with Requirements of Each Major Program

       IB6     Schedule of Findings and Questioned Costs

       IB7     Corrective Actions Plan

       IB8     Schedule of Prior Year Findings


Stage I was also used to test the following Database elements from the Database to the Single
Audit report or Data Collection Form as indicated in Tables 2 through 4. Database elements are
defined by reference to the applicable item on the Data Collection Form. The Data Collection
Form is divided into three parts as follows:

   •   Part I, General Information

       1.      Fiscal Year Ending Date
       2.      Type of Circular A-133 Audit
       3.      Audit Period Covered
       4.      Date Received (not tested - Census use only)
       5.      Employer Identification Number
       6.      Auditee Name, Address and Signature
       7.      Auditor Name, Address and Signature
       8.      Did Auditee Expend More than $25 Million in Federal Awards?
       9.      Name of Federal Cognizant or Oversight Agency for Audit

   •   Part II, Financial Statements

       1.      Type of Audit Report
       2.      Going Concern Explanatory Paragraph
       3.      Reportable Conditions
       4.      Material Weaknesses
       5.      Material Non-Compliance
U.S. Department of Commerce                                                          Final Report ATL-16202-4-0001
Office of Inspector General                                                                             May 2004

                                                                                                       Appendix I
                                                                                                       Page 3 of 6

   •      Part III, Federal Programs

          1.      Type of Audit Report on Major Program Compliance
          2.      Statement concerning other A-133 audits not included in this audit
          3.      Dollar Threshold to Distinguish Type A and Type B Programs
          4.      Low-Risk Auditee
          5.      Reportable Conditions
          6.      Material Weaknesses
          7.      Questioned Costs
          8.      Summary Schedule of Prior Audit Findings Reported
          9.      Federal Agencies Required to Receive Reporting Package

          10d.    Total Award Amount Expended


Stage I was also used to test that all Single Audit findings and questioned costs reported in the
selected Single Audit reports were correctly included in the Database as indicated in Table 7.

Stage II was used to test the following CFDA program entries from the Database to the Single
Audit report as indicated in Tables 5 and 6. Database elements are defined by reference to the
applicable item on the Data Collection Form as follows:

   •      Part III, Federal Programs

          10.     Federal Awards Expended During Fiscal Period
          11.     Audit Findings

Stratification for Stage I and Stage II Sampling Plan

We used the software program Interactive Data Extraction & Analysis (IDEA) to perform
several stratifications of the universe to determine the stratified sample selection for stage I and
stage II. We stratified the universe as follows:

                                      Number                                                           Federal Award
                                      of Single                    Total                               Expenditures in
                 Strata Range          Audit      % of Total   Expenditures      % of Total   Sample      the Sample
Stratum          (in thousands)       Reports      Reports      in Universe      Expended      Size     (in thousands)
   1          $ 300      $ 25,000        18,323       97.9%       $ 46 Billion       10.7%       100            $304,168
   2           25,000       500,000         337        1.8%         31 Billion        7.1%        66           5,659,768
   3         500,000     70,000,000          49         .3%        354 Billion       82.2%        34         261,874,726
 Totals                                  18,709      100.0%       $431 Billion      100.0%       200        $267,838,662
U.S. Department of Commerce                                               Final Report ATL-16202-4-0001
Office of Inspector General                                                                  May 2004

                                                                                           Appendix I
                                                                                           Page 4 of 6

As mentioned earlier, the universe of the Stage II is the CFDA lines or programs included in the
Schedule of Federal Awards. There is a total of 215,210 programs identified on the
Clearinghouse Database for FY 2002 as of June 16, 2003.

                Range of Stage I       Number of
               Dollars Expended         CFDA          % of Total    Total Expenditures     % of Total
 Stratum         (in thousands)         Entries      CFDA Entries       (rounded)          Expended
    1          $ 300 $        25,000      154,251           71.7%          $ 46 Billion          10.7%
    2           25,000       500,000       28,936           13.4%            31 Billion           7.1%
    3          500,000    70,000,000       32,023           14.9%           354 Billion          82.2%
  Totals                                  215,210          100.0%          $431 Billion         100.0%


Sampling Criteria an Determination of Sample Size

The stage I, sample size of 200 was determined using a confidence level of 95 percent one-sided,
to assess a tolerable error rate of 7 percent or less. We estimated the deviation (error) rate at 3.75
percent. The actual error rate for the FY 1999 Agreed Upon Procedure Report on the
Clearinghouse Database review was 1 percent or less. Therefore, the estimated error rate of 3.75
percent for the FY 2002 review is reasonable. We allocated the sample of 200 reports to the
three strata as follows: stratum 1 includes 100 reports; stratum 2 includes 66 reports; and stratum
3 includes 34 reports. We used the formulas provided by Richard L. Scheaffer, Elementary
Survey Sampling published by Duxbury Press (Wadsworth Publishing Co.), 1996, page 97, to
verify that if the planned error rate of 3.75 percent was achieved, the combined sample for the
three strata would produce a projected deviation rate of 7 percent or less.

It was decided to test internal controls for a low level of risk. Based on prior experience, we
expect to find no more than 3.75 percent errors. To assess internal controls for a low level of
risk, it requires that we use a 95 percent one-sided confidence level and a Tolerable
rate of 7 percent or less. To see the effect of the Tolerable rate of 7 percent or less, for the stage
I sample, the following is a range of sample sizes using different Tolerable rates:

              Tolerable Rate                          5%         7%            9%
              Universe                              18,709     18,709        18,709
              Estimated Deviation Rate              3.75%      3.75%         3.75%
              Sample Size                            250        185           100

The above sample sizes were determined based on the AICPA, Auditing Procedures Study, Audit
Sampling (New York, 1997), Determination of Sample Size; Reliability, 95percent. We decided
to use a total sample of 200 for the stage I sample.
U.S. Department of Commerce                                                Final Report ATL-16202-4-0001
Office of Inspector General                                                                   May 2004

                                                                                             Appendix I
                                                                                             Page 5 of 6

In order to determine the stage II random sample, it was first necessary to link the stage I random
sample with the data- file containing the CFDA detail to determine the total CFDA lines for each
of the 200 sampled Single Audit reports. We identified that the 200 stage I sample reports have
a total of 24,009 CFDA lines. In the previous audit, we selected CFDA lines from each sample
transaction. For this audit, we decided to allow IDEA to select a random sample of 900 CFDA
lines from the 24,009 universe of CFDA lines for the 200 stage I sample. We knew that this may
result in not selecting CFDA lines for each of the 200 reports. The following is the results of the
sample selection.

                      Stage I     CFDA Program                                CFDA Program
                      Sample      Entries in Stage I   Number of Reports     Entries in Stage II
         Stratum      Reports          Sample          Selected                   Sample

            1           100               943                  81                   300
            2            66             4,344                  47                   300
            3            34            18,722                  27                   300
          Totals        200            24,009                155                    900


The random selection of 900 CFDA lines was derived from 155 Single Audit reports. In the
prior year Agreed-Upon Procedures, we allocated the sample to each report. We believe that the
current approach will also produce a low level of sampling risk. The total CFDA lines samples
in the prior report was 2,559 and the precision was plus or minus 1 percent or less. Because of
excellent results achieved, we decided that the sample for FY 2002 should be less than the prior
sample. We believe that the 900 sample items will also produce a precision of less than plus or
minus 2 percent.

Sample Evaluation

It was decided to test internal controls for a low level of risk. To assess internal controls for a
low level of risk, we used a 95 percent one-sided confidence level and a tolerable error rate of 7
percent or less. At this low level of risk, a high reliance can be placed on the system of internal
controls over the Clearinghouse Database.

Based on the projections, only the following two elements were not considered to have a low
level of risk: 1) the auditor’s address, and 2) the identification of low risk auditee. The
Clearinghouse has already corrected the programming error that did not allow the users of the
Database to view the full address of the auditor. The importance of correctly reporting whether
an auditee is classified as a low-risk auditee requires that the auditors be reminded of the
importance of accurately completing the Data Collection Form and that care is needed in
correctly reporting whether an auditee does or does not qualify as low risk on the Auditor’s
Summary.
U.S. Department of Commerce                                          Final Report ATL-16202-4-0001
Office of Inspector General                                                             May 2004
                                                                                      Appendix I
                                                                                      Page 6 of 6

The stage I projections were calculated using formulas from Elementary Survey Sampling, by
Richard L. Scheaffer, published by Duxbury Press (Wadsworth Publishing Co.), 1996, pages 95­
97, formulas for Estimation of a Population Proportion formula 4.16 and 4.17. For Stage I
projections when the sample showed no errors, we projected an upper range of errors of 1.10
percent. For this calculation, we used Table F-27 Sample Precision for Relative Frequencies for
Random Samples Only- Rate of Occurrences in Sample = 0%.

For combining the Strata in stage I projections, we used the formulas from Elementary Survey
Sampling, by Richard L. Scheaffer, published by Duxbury Press (Wadsworth Publishing Co.),
1996, page 150 using formula number 5.13 and 5.14. The Scheaffer formula were tested against
the formula in the Handbook of Sampling for Auditing and Accounting, by Herbert Arkin,
Second Edition, published by the McGraw-Hill Book Company, 1974. We used the formula on
pages 172-175. Both formulas arrived at the same overall results with insignificant differences.

For the stage II formulas, we used the formulas from Elementary Survey Sampling, by Richard L.
Scheaffer, published by Duxbury Press (Wadsworth Publishing Co.), 1996, page 345, formulas
9.11, 9.12, and 9.13. For combining the Strata in stage II projections, we used the formulas from
Elementary Survey Sampling, by Richard L. Scheaffer, published by Duxbury Press (Wadsworth
Publishing Co.), 1996, page 150. The formula were tested against the formula in the Handbook
of Sampling for Auditing and Accounting, by Herbert Arkin, Second Edition, published by the
McGraw-Hill Book Company, 1974, using the formula on page 175. Both formulas arrived at
the same overall results with insignificant differences.
U.S. Department of Commerce                                                                              Final Report ATL-16202-4-0001
Office of Inspector General                                                                                                 May 2004

                                                                                                                                 Append ix II
                                                                                                                                  Page 1 of 2
                                      Summary Schedule of Sampling Projections

The following Summary Schedule includes the projections of errors resulting from the sampling
plan developed by the Department of Labor, Office of Inspector General, as described in
Appendix I. The sampling projections were based on the errors found and reported in Tables 1
through 7 of the Agreed-Upon Procedures and Results Section of this report. We did not include
in this Summary Schedule those attributes where we found zero errors in the sample. However,
even with zero errors in the sample you cannot assume zero errors in the population due to
sampling error, the risk that our sample is not truly representative of the population.

The sampling plan utilized a two-stage stratified random attribute sample designed to achieve a
confidence level of 95 percent one-sided, to assess a tolerable error rate of 7 percent or less. We
estimated the deviation rate at 3.75 percent or less. We defined an error as any instance where
the information for the data element tested per the Database did not agree with the Single Audit
report or Data Collection Form as applicable. For dollar amount data elements, a difference of
$100 or less was not considered an error.


                                                  Agreed-Upon Procedures and Results
                                              Section I - Completeness of Reporting Package
                                                                                                                Projected                     Projected
                                                                                                  Point         Errors at        Upper        Errors at
                                                                                                 Estimate         Point          Range         Upper
                                                       Population Sample             Errors         %1          Estimate2         %3           Range 4
Table 1 - Reporting Package
    7. Corrective Action Plan (CAP) for current           18,709         200            1          0.98%            183          2.58%            483
       year audit findings.
    8. Summary Schedule of Prior Year Audit               18,709         200            2          0.05%             11          1.11%            208
       Findings may be included although this
       schedule is not always required.




1
          The Point Estimat e % is derived from the three individual stratum error percentages and represents the most plausible estimate of the
percentage of errors in the entire population. We have rounded the Point Estimate percentage to two-digits for this table.
2
           The Projected Errors at the Point Estimate is the point estimate percentage multiplied by the entire population and represents the
estimated number of errors in the population. Although the point estimate percentage was rounded to two-digits for this table, the actual point
estimate percentage was used in the calculation of the projected errors.
3
           The Upper Range % is defined as a calculated value for which we are 95% confident (one-sided) that the true error percentage will not
exceed the calculated percentage. The upper range percentage is simply the point estimate percentage plus the sampling risk for not auditing
100% of the population. We have rounded the Upper Range percentage to two-digits for this table. For the stage I sample data elements where
we found 0 errors the upper range percentage is 1.10%.
4
           The Projected Errors at the Upper Range is the upper range percentage multiplied by the population which equals the estimated errors
in the population. We are 95% confident that the true errors will not exceed the Projected Errors at the Upper Range. Although the upper range
percentage was rounded to two-digits for this table, the actual upper range percentage was used in the calculation of the projected errors. For the
stage I sample data elements where we found 0 errors we calculated a projected error rate at the upper range of 206 errors.
U.S. Department of Commerce                                                            Final Report ATL-16202-4-0001

Office of Inspector General                                                                               May 2004


                                                                                                         Appendix II
                                                                                                          Page 2 of 2
                                                  Agreed-Upon Procedures & Results
                                                                                           Projected             Projected
                                                                                   Point   Errors at    Upper    Errors at
                                                                                  Estimate              Range
                                                                                             Point                Upper
                                                                                     %                   %
                                                  Universe Sample    Errors                Estimate               Range
Table 2 - General Information
Item 6(b) - Auditee Address                         18,709     200          3       1.03%        193     2.64%          494
Item 6(g) - Auditee Signature                       18,709     200          7       2.99%        559     5.74%        1,073
Item 7(a) - Auditor Name                            18,709     200          1       0.98%        183     2.58%          483
Item 7(b) - Auditor Address                         18,709     200         10       4.08%        763     7.24%        1,355
Table 3 - Financial Statements
Item 1 - Type of Audit Report
1(a) - Compared with Auditor’s Report One           18,709     200            1     0.98%        183     2.58%          483
Item 3 - Reportable Conditions
3(a) - Compared with Auditor’s Report Two           18,709     200            3     2.94%        550     5.68%        1,063
3(b) - Compared with Auditor’s Summary              18,709     200            1     0.98%        183     2.58%          483
Item 4 - Material Weakness
4(a) – Compared with Auditor’s Report Two           18,709     200            1     0.98%        183     2.58%          483
4(b) - Compared with Auditor’s Summary              18,709     200            3     1.99%        372     4.24%          793
Item 5 - Material Non-Compliance
5(b) - Compared with Auditor’s Summary              18,709     200            2     0.99%        185     2.59%          485
Table 4 - Federal Programs Items 1-9
Item 1 - Report on Major Program Compliance
1(b) - Compared with Auditor’s Summary              18,709     200            1     0.80%         150    0.15%           28
Item 2 – Related A-133 Audits                       18,709     200            4     1.97%         369    4.23%          791
Item 3 - Type A Dollar Threshold                    18,709     200            8     3.08%         576    5.82%        1,089
Item 4 - Low-risk Auditee                           18,709     200            6     5.88%       1,100    9.70%        1,815
Item 5 - Reportable Conditions
5 (b) - Compared with Auditor’s Summary             18,709     200            4     1.06%        198     2.67%          500
Item 6 - Material Weakness
6(a) – Compared with Auditor’s Report Three         18,709     200            1     0.80%        150     0.15%           28
6(b) - Compared with Auditor’s Summary              18,709     200            3     0.62%        116     0.12%           22
7 Questioned Costs                                  18,709     200            2     1.01%        189     2.61%          488
8 Prior Audit Findings                              18,709     200            5     2.04%        382     4.30%          804
9 Reporting Package List
9(a) Compared with Auditor’s Summary                18,709     200         16       2.15%        402     4.40%          823
9(b) Compared to Summary of Prior Audit Finding     18,709     200          2       1.96%        367     4.21%          788
Table 5 - Federal Programs Item 10
Item 10 - Federal Awards Expended
10(a) - CFDA Number                                215,210     900          4       0.36%         770    0.77%        1,657
10(b) – Research & Development                     215,210     900          2       0.28%         592    0.68%        1,455
10(c) Name of Federal Program                      215,210     900          4       0.50%       1,070    0.99%        2,136
10(d) - Federal Expenditures                       215,210     900          6       0.91%       1,965    1.63%        3,501
10(d)(a) – Total Fed Expend compared with SEFA      18,709     200          4       1.06%         198    2.67%          500
10(e) – Direct Award                               215,210     900         35       3.73%       8,027    5.08%       10,933
10(f) –Major Program                               215,210     900         10       2.01%       4,326    3.12%        6,706
Table 6 - Federal Programs Item 11
Item 11 - Audit Findings
11(a) - Type of Compliance Requirement             215,210     900            6     0.49%       1,052    0.92%        1,987
11(b) – Finding Reference                          215,210     900            4     0.34%         725    0.75%        1,610
Table 7 – Audit Findings
Audit Findings                                      18,709     200            7     1.03%        193     2.63%          492
U.S. Department of Commerce                                  Final Report ATL-16202-4-0001
Office of Inspector General                                                     May 2004
                                                                            Appendix III
                                                                             Page 1 of 1

                          SPECIFIED USERS OF FEDERAL AUDIT

                             CLEARINGHOUSE DATABASE


Department of Agriculture
Department of Commerce
Department of Defense
Department of Education
Department of Energy
Department of Health and Human Services
Department of Housing and Urban Development
Department of the Interior
Department of Justice
Department of Labor
Department of Transportation
Corporation for National and Community Service
Environmental Protection Agency
Federal Emergency Management Agency (Department of Homeland Security)
National Aeronautics and Space Administration
National Science Foundation
U.S. Department of Commerce                                           Final Report ATL-16202-4-0001

Office of Inspector General                                                              May 2004


                                                                                     Appendix IV
                                                                                      Page 1 of 1

                                          GLOSSARY

 Auditor’s Report One         The Independent Auditor’s Opinion on Financial Statements and
                              Supplementary Schedule of Expenditures of Federal Awards.


 Auditor’s Report Two         The Report on Compliance and on Internal Controls over
                              Financial Reporting Based on an Audit of Financial Statements in
                              Accordance with Government Auditing Standards.


 Auditor’s Report Three       The Report on Compliance with Requirements Applicable to
                              Each Major Program and on Internal Controls over Compliance in
                              Accordance with OMB Circular A-133.


 Auditor’s Summary            The Summary of Auditor’s Results included in the Schedule of
                              Findings and Questioned Costs.


 CAP                          A Corrective Action Plan for current year audit findings.


 CFDA                         The Catalog of Federal Domestic Assistance.


 Data Collection Form         The Data Collection Form for Reporting on Audits of States,
                              Local Governments and Non-Profit Organizations.


 Prior Audit Findings         A Summary Schedule of Prior Audit Findings may be included
                              although it is not always required.


 SEFA                         The Schedule of Expenditures of Federal Awards.
